T                            he Library of Congress
                             Office of the Inspector General




                                                                                                                            End paper with Empire pattern
End paper with Stormont pattern          End paper with Dutch Marble pattern   End paper with French Shell Marble pattern




                                  Semiannual Report to the Congress
                                                                                                September 2013
 This semiannual report features Thomas Jefferson’s Library, and the Thomas Jefferson Building’s pavillions. In
 January 1815, Congress appropriated $23,950 to acquire President Thomas Jefferson’s 6,487 books, laying the
 foundation for a great national library. The Jeffersonian concept of universality, the belief that all subjects are
 important to the library of the American legislature, is the philosophy and rationale behind the comprehensive
 collecting policies of today’s Library of Congress. In this vein, the decor in the Library’s pavillions feature lit-
 erature, music, science, and art.




Front and Back Covers: Rare Books and End Papers from
the Rare Books and Special Collections Division of the
Library of Congress.

Above: Thomas Jefferson Building

Photographs: Restoration Office, Library of Congress, and
Walter E. Obando, Office of the Inspector General.
September 30, 2013


Message From the Inspector General
In the last six months we prepared reports on the Library’s Web search strategy, collections
development, the Open World Leadership Center’s fiscal year (FY) 2012 financial statements, and
the status of an in-progress facilities planning review. During this period, investigations focused
on falsifying time and attendance records, theft of computers, and referrals and assistance to
other law enforcement agencies. One investigation resulted in a three-count criminal conviction.
Finally, in the last six months, we responded to two congressional inquiries, oversaw the audit of
the Council of the Inspectors General on Integrity and Efficiency’s FY 2013 financial statements,
received a peer review of our audit operations, and peer reviewed the audit operations of another
federal Inspector General.

In the next six months, we will report on processing born-digital collection items; collections
policy management; strategic sourcing; the Library’s FY 2013 financial statements audit; the
Alternate Computing Facility; certification and accreditation of information technology systems;
the Library’s use of the life cycle systems development process; an in-progress facilities planning
review; an in-progress investigation of a former Library contractor, and other matters.

The Library implemented two of our recommendations from prior semiannual periods. The
Office of the Inspector General (OIG) disagreed with one management decision made by the
Library during the last six months.

Our publicly released reports are available online at www.loc.gov/about/oig. We appreciate the
cooperative spirit Library staff have shown during our reviews.




Karl W. Schornagel
Inspector General
Table of Contents


In Summary.......................................................................................................................................      1
Top Management Challenges......................................................................................................                        4
Profiles............................................................................................................................................   9

Audits, Surveys, and Reviews......................................................................................................                     13
   Enterprise-wide Search Strategy.....................................................................................................                13
       Acquisitions and Collections Management........................................................................................                 14
       Open World Leadership Center’s FY 2012 Financial Statements................................................................. 21
       Facilities and Space Utilization.............................................................................................................   23
Investigations.................................................................................................................................        25
        Significant Criminal, Civil, and Administrative Investigations..............................................................                   26
        Follow-up on Investigative Issues from Prior Semiannual Reports........................................................                        27
Other Activities................................................................................................................................       30
        Congressional Inquiries...................................................................................................................     30
        Peer Review of Library of Congress OIG........................................................................................                 30

        Peer Review of Corporation for Public Broadcasting OIG......................................................................                   31
Review of Legislation and Regulations.......................................................................................                           32
Unimplemented Recommendations............................................................................................                              33
Implemented and Closed Recommendations............................................................................                                     45
Funds Questioned or Put to Better Use...................................................................................                               47
Instances Where Information or Assistance Requests Were Refused...............................                                                         48
Status of Recommendations Without Management Decisions...........................................                                                      48
Significant Revised Management Decisions...........................................................................                                    48
Significant Management Decisions with Which OIG Disagrees.......................................                                                       48
Follow-up on Prior Period Recommendations........................................................................                                      48
OIG Organizational Chart.........................................................................................................                      49
Hotline Information.................................................................................................Inside Rear Cover




                                                                                                  Left: The Northwest Pavilion of the Thomas Jefferson
                                                                                                  Building, Featuring Art and Science.

                                                                                                  Photograph: Carol Highsmith
                 In Summary . . .
                 Audits, Surveys, and Reviews
                 To accomplish its mission, the Library must acquire, preserve, store, and
                 make accessible materials from around the world that it deems relevant to
                 the American people, Congress, and the federal government. We conducted
                 an evaluation to assess the logistical impact of the policies and procedures
                 supporting the development of the Library’s collections.

                 We found that the Library is obtaining a universal collection of material for
                 future generations but there are several critical challenges in accomplishing
                 the Library’s mission. Particularly, budget and staff reductions make
                 processing and storing materials a significant challenge and cause great
                 difficulty in making the collections accessible. We offered short- and long-
                 term considerations for Congress and the Library to consider.

                 During this semiannual period, we also conducted an evaluation to
                 determine whether the Library’s enterprise search strategy has resulted
                 in efficiencies and potential cost savings. Enterprise search involves the
                 capability to perform a Library-wide search to locate information from all
                 of the Library’s Web sites. We found that the Library is taking the right
                 steps to ensure that its Web search strategy is an enterprise-wide solution
                 and recommended that Library Services determine whether any data from
                 its terminated National Library Catalog project can be migrated into the
                 Library’s current enterprise-wide strategy. We also recommended that
                 the Information Technology Steering Committee expand its oversight of
                 information technology projects.

                 Additionally, we initiated a survey of Library facilities with the objective
                 of evaluating the Library’s plans for continuing operations at the National
                 Library Service (NLS) for the Blind and Physically Handicapped’s Taylor
                 Street Facility and relocating elements of NLS, the copyright deposits,
                 and Integrated Support Services’ Logistics Center at Landover Center
                 Annex to a new multi-purpose facility. The survey is also addressing related
                 logistics, space utilization, and lease agreement concerns and the funding
                 implications of critical facility management projects. The fieldwork will
                 continue into FY 2014 due to extended leave required of the in-charge
                 auditor.

                 These reports are further discussed beginning on page 13.




1 • Semiannual Report to the Congress
Investigations

During this reporting period, we investigated an allegation that an employ-
ee was fabricating credit hour requests and falsifying time and attendance
records. We also identified a suspect in a laptop theft.

The Library was targeted by an outside party attempting to compromise its
external Web servers. The OIG assisted with the coordination between the
Library and the FBI in addressing this denial of service attack.

During the previous reporting period, the OIG received a harassment com-
plaint about an employee using their Library computer to threaten a former
acquaintance. OIG investigators presented the case to the U.S. Attorney’s
Office for prosecution and arrested the employee for stalking and two other
counts. The employee was indicted and pled guilty to the charges.

The OIG followed up on a hotline complaint from the previous report-
ing period regarding a government-issued laptop awaiting disposal that was
stolen from a locked storage container. The investigation identified two ad-
ditional missing laptops. Only one of the three was recovered. We suggested
that Library management streamline the disposal process and strengthen
the safeguards designed to protect equipment.

We also hired a new General Counsel, promoted Thomas E. Williams
to the position of the Assistant Inspector General for Investigations, and
trained a staff member to be a seized computer evidence recovery specialist.
Additionally, we built a fully operational computer forensics lab.

Investigations efforts and follow-up on prior
period cases are further discussed beginning on
page 25.




                                                    Above: Circular Relief Representing Spring, North-
                                                    west Pavilion.

                                                    Detail of Photograph by Carol Highsmith
                                Other Activities

                                The OIG responded to a request from the Chairman and Ranking Member,
                                House Committee on Oversight and Government Reform. The request
                                asked the OIG to identify high-priority recommendations to improve
                                efficiency and reduce waste at the Library of Congress and asked how
                                Library management solicits input from the OIG on improving efficiency
                                and reducing waste.

                                The OIG also responded to the Bicameral Task Force on Climate Change
                                requesting that the OIG review the Library’s efforts to address the
                                increasing threat of climate change. The response included applicable
                                laws and regulations, prior OIG audit work on energy consumption and
                                conservation, and a detailed listing of the Library’s related programs and
                                efforts.

                                During this reporting period the audits division of the OIG received a peer
                                review from the U.S. Securities and Exchange Comission OIG. Federal
                                audit organziations may receive a rating of pass, pass with deficiencies, or fail.
                                The OIG received a rating of pass.

                                The OIG also conducted a peer review of the audits division of the
                                Corporation for Public Broadcasting (CPB) OIG. We found that the
                                system of internal control for the audit activities of the CPB OIG was
                                suitably designed and functioning and provided the CPB with a rating of
                                pass.

                                These activities are further discussed beginning on page 30.




Above: Frieze of Carved Lion’s Head and Pilaster Capitals,
Northwest Pavilion.

Photograph: Carol Highsmith

 3 • Semiannual Report to the Congress
Top Management Challenges
This section provides a collective summary of issues that have been covered
over several years of OIG reviews that, in our view, represent long-term
challenges for the Library of Congress.

Facilities

Collections Storage—The Library currently faces a challenge in its mission
to properly store and preserve its collections. The floors in the stacks of
the Jefferson and Adams buildings are now being used to store the general
collections and the Library is double- and triple-shelving materials. There
are upwards of a million overflow volumes. The original construction
schedule for Fort Meade collection storage modules would have provided
space to house these collections and space for continuing expansion, but
the last module intended to store general collections was completed in 2005
and filled in 2011. Modules 3 and 4, completed in 2009, were intended
for special format collections, which include items such as maps, globes,
manuscripts, prints and photographs, sheet music, and more. The modules
are now nearly filled to capacity. Only a few special format collections
remain for transfer, with a small amount of space being allocated for “must
sends,” new acquisitions that are automatically forwarded off-site. No
funding has been appropriated for future modules at this time.

The Library is currently addressing the overflow issue through a number
of interim measures. Among these is the installation of shelving for high-
density storage at its Landover warehouse to store an estimated 800,000
items, and an initiative to pursue alternative methods of shelving items
on Capitol Hill to maximize capacity. As the Library adds about 250,000
books and periodicals to the collections each year, the shortage of space
will continue to grow. Further exacerbating this issue is the lack of secure
storage for some rare and valuable collections. The Law Library and the
Music and Asian Divisions, among others, have been forced to store some
of their rare materials in less-than-optimal conditions from a security and
environmental point of view. During this reporting period, the OIG issued
a report that expands on storage conditions and its effect. See page 14.

Reading Room Space Allocations—The Internet age has allowed the
Library to increase public access to its collections by digitizing and placing
them online. The Library, through various cutting-edge programs, including
the National Digital Information Infrastructure and Preservation Program,
is at the forefront of preserving digital content. Today, the Library’s Web
site, www.loc.gov, is among the Internet’s most visited, with billions of page




                                               4 • Semiannual Report to the Congress
                                hits annually and unrivaled depth and richness of content. However, this
                                shift in access modalities has resulted in a significant decrease in the in-
                                person use of Library materials and resources.

                                Consequently, there is a significant amount of underutilized reading room
                                space. The Library’s I-900 program addresses some of these concerns by
                                consolidating collection materials into a Center of Knowledge within the
                                Main Reading Room and some adjacent space. The tentative completion
                                date for this initiative is the first quarter of FY 2016.

                                Conference and Training Rooms—An OIG audit identified an increasing
                                number of conference and training facilities in the Library’s James Madison
                                Memorial Building. In 2008 there were more than 120 such facilities in
                                the building totaling more than 42,000 square feet which were, in many
                                cases, underutilized. Consolidating and centrally locating and managing
                                conference and training rooms, as the Copyright Office has done, would
                                make a substantial contribution toward efficiency in the Library’s use of
                                floor space.

                                Information Technology (IT) Infrastructure

                                In 2009 we issued an audit report that focused broadly on the Library’s
                                plan for managing its IT infrastructure investments. The audit looked at:
                                1) whether the Library’s IT strategic plan aligned with its overall strategic
                                plan, 2) the validity and integrity of the IT plan, 3) the appropriateness and
                                effectiveness of the Library’s IT organizational structure and placement,
                                and 4) the extent to which relevant recommendations made by the National
                                Research Council in a 2000 report were implemented by the Library.
                                We made a series of recommendations about: 1) maturing the Library’s


Below: Frieze of Carved Lions’ Heads and Pilaster Capitals, Northwest Pavilion.

Photograph: Carol Highsmith
IT strategic planning process, 2) making IT investments from a cost/benefit
and institution-wide perspective, 3) considering organizational changes,
4) implementing an enterprise architecture program for planning future
technology, and 5) improving customer service.

In late 2011, we followed up on this report. In general, we found that
the Library had implemented, or was implementing, most of our
recommendations, although progress was slower than we had expected.
We believe Library management’s continued focus on implementing these
recommendations will result in substantial long-term efficiencies. In FY
2010, the Library obligated $107 million for IT-related expenditures
(37% of its discretionary budget) for services, hardware, software, and
maintenance.

In 2002, the Library opened a new Alternate Computing Facility (ACF).
The purpose of the facility was to provide backup storage for data located on
Capitol Hill and a recovery mechanism for important software applications
so that the Library could resume business, at least in a limited capacity, in
the absence of its Capitol Hill data center. In 2009, we reported that it
was unclear whether or not the ACF could successfully provide service to
its customers in the event of a catastrophic failure of the main data center.
Since then, the Library has begun limited testing of the ACF. However,
further testing is still needed to assure essential functions can be restored
should the primary site become inoperable. As the Library’s financial
system is now cross-servicing four external clients, delays in testing become
increasingly important.
            One OIG report was issued during this semiannual period to address IT-related
            management challenges. A detailed description of this work begins on page 13
            of this report and it is publicly available at www.loc.gov/about/oig. We will
            report on in-progress reviews of the Alternate Computing Facility, certification
            and accreditation of information technology systems, and the Library’s use of
            the systems developement life cycle process in our next Semiannual Report to
            the Congress.

            Performance Reporting

            As a result of an OIG audit, and at the direction of Congress, the Library adopted
            a planning, budgeting, and management system based on the Government
            Performance and Results Act (GPRA). In its initial stages the Library established
            a GPRA-styled strategic planning process, linked its planning and budgeting
            to its strategic planning format, initiated GPRA-styled annual program plans,
            and introduced performance management to its workforce. The adoption of a
            GPRA-styled management approach will allow the Library to better analyze and
            report its activities and more successfully compete for diminishing discretionary
            funding.

            Recognizing that the Library has developed a robust planning and budgeting
            framework, it still has work to do to improve these processes. Following the
            lessons learned by the executive agencies’ GPRA experiences, Library management
            should be able to tailor its GPRA approach to fit its unique operations and
            maximize the benefits of its GPRA efforts.

            In passing the GPRA Modernization Act of 2010 (the Modernization Act),
            Congress made adjustments to assure that agencies more efficiently manage their
            GPRA efforts, improve the quality of performance metrics, and clearly disclose
            the accuracy of performance data. The Library has not yet developed a mechanism
            for evaluating programs; provided a framework for assuring consistent, valid,
            and verifiable metrics; or established a methodology to relate resource allocations
            to program performance. To its credit, Library management has designed a more
            comprehensive performance management approach for FY 2014 to address these
            challenges. To ensure success, the Library must design and implement a GPRA
            framework that efficiently provides valid and reliable performance metrics to
            support management decision-making.

            Contracting

            A series of OIG reports dating back to 2002 document weaknesses that have
            beset the Library’s contracting function. Principal areas of concern include
            a questionable understanding of federal contracting by participants in the


7 • Semiannual Report to the Congress
                                                                           Left: The U.S. Capitol as seen from
                                                                           a Northwest Pavillion Window.

                                                                           Photograph: Michael Dersin.




contracting chain ranging from the service units to the contracting office,
poorly trained staff, a lack of continuity in leadership in the Office of Contracts
Management, an inefficient financial system contracting module, and ineffective
contract review procedures. These deficiencies may prevent the Library from
obtaining the best value in contracts and expose the Library to an unacceptably
high risk of inefficiency and waste of funds.

Work we conducted during the March 2012 semiannual period concluded that
the weaknesses we have reported in the Library’s contracting function continued,
and in fact, the function had further deteriorated since our last report in 2008.

The Committee on House Administration conducted a hearing on our report
of the Library’s contracts function. Based on testimony and discussions with the
Deputy Librarian about management actions in response to our report, we believe
the Library is on its way to making substantial improvements to its contracting
activities. Total improvement in the Library’s contracting function is the only
acceptable outcome. We will actively monitor and report on progress in this area.
OIG testimony can be found at www.loc.gov/about/oig.

                                            Semiannual Report to the Congress • 8
                                Profiles
                                Library of Congress
                                The Library of Congress is the research and information arm of the United
                                States’ national legislature and the world’s largest storehouse of knowledge.
                                The mission of the Library is to support the Congress in fulfilling its
                                constitutional duties and to further the progress of knowledge and creativity
                                for the benefit of the American people. The mission is accomplished through
                                more than 4,000 employees and contractors, and more than $800 million
                                in annual appropriated funds and other financing sources.

                                Founded in 1800, the Library of Congress is also the nation’s oldest federal
                                cultural institution, holding more than 155 million items on 838 miles
                                of shelves. These items include books, manuscripts, maps, prints and
                                photographs, printed music, sound recordings, films, and microforms. Half
                                of the Library’s collections are from outside the United States, representing
                                470 languages. In addition to its three Capitol Hill buildings and Taylor
                                Street Annex in Washington, DC, the Library operates six overseas offices
                                and stores collections material in purpose-built facilities in Maryland and
                                at the National Audio Visual Conservation Center in Culpeper, Virginia.
                                More than 37 million original source analog items have been digitized and
                                are accessible at www.loc.gov. The Library also holds an exponentially
                                expanding collection of digital-born content.

                                The Library’s core organizational components are:

                                    •	     The Office of the Librarian,
                                    •	     Library Services,
                                    •	     The U.S. Copyright Office,
                                    •	     The Congressional Research Service,
                                    •	     The Law Library,
                                    •	     The Office of Strategic Initiatives, and
                                    •	     The Office of Support Operations.

                                The Office of the Librarian provides leadership and executive management
                                to the Library, overseeing the implementation and management of the
                                Library’s mission to support the Congress in fulfilling its constitutional
                                duties and to further the progress of knowledge and creativity for the benefit
                                of the American people.




Above: Library of Congress Book Plate c. 1800

 9 • Semiannual Report to the Congress
Library Services performs the traditional functions of a national library:
acquisitions, cataloging, preservation, and reference services for both digital
and conventional collections. It operates the National Library Service for
the Blind and Physically Handicapped and the American Folklife Center,
among other programs.

The U.S. Copyright Office administers the copyright laws of the nation and
registers copyrightable material; its deposits of intellectual material (books,
music, and movies) substantially contribute to the Library’s collections.

The Congressional Research Service supports the legislative process by
providing exclusively to Congress objective, confidential assessments of
public-policy issues, and legislative options for addressing those issues.

The Law Library assists Congress and the legislative process by supporting
comprehensive research on foreign, comparative, international and U.S.
law, and other legal reference services.

The Office of Strategic Initiatives directs the national program for long-
term preservation of digital cultural assets, leads a collaborative institution-
wide effort to develop consolidated digital future plans, and integrates the
delivery of IT services.

The Office of Support Operations provides centralized leadership and
oversight of infrastructure services and includes: Human Resources
Services, Integrated Support Services, the Office of Security and Emergency
Preparedness, and the Office of Opportunity, Inclusiveness, and Compliance.

Last year, services provided by the Library included:

    •	   Fulfilling 540,489 reference requests,
    •	   Circulating 25 million disc, cassette, and Braille items to more 		
	        than 800,000 blind and physically handicapped patrons,
    •	   Registering 511,539 copyright claims,
    •	   Receiving 22,000 items daily and adding more than 11,000 items 	
	        daily to 	its collections,
    •	   Responding to more than 700,000 congressional reference requests 		
	        and delivering to Congress more than 1 million research products and
	        approximately 30,000 volumes from the Library’s collections, and
    •	   Providing to Congress access to more than 8,100 reports on 		
	        legislative issues and preparing more than 3,200 tailored analyses.

The Library of Congress also recorded 87 million visits and 545 million
page-views of its primary source files on its Web site, and received 1.7
million on-site visitors.
                                                 Semiannual Report to the Congress • 10
                                 Office of the Inspector General

                                 The establishment of statutory federal Inspector Generals (IG) began in 1978
                                 to create and empower independent audit and investigative organizations
                                 to focus on fraud, waste, and abuse within federal agencies. The Library of
                                 Congress OIG was established in 1988 as a non-statutory office deriving its
                                 authority from the Librarian of Congress. The OIG became statutory with
                                 the passage of The Library of Congress Inspector General Act of 2005, with a
                                 mandate to:

                                     •	     Conduct and supervise audits and
                                 	          investigations relating to the Library of Congress,
                                     •	     Lead, coordinate, and recommend policies to
                                 	          promote economy, efficiency, and effectiveness, and
                                     •	     Keep the Librarian of Congress and the Congress
                                 	          fully and currently informed about problems and
                                 	          deficiencies relating to the administration and
                                 	          operations of the Library of Congress.

                                 The IG is a member of the Council of the Inspectors General on Integrity
                                 and Efficiency (CIGIE), a unified council of all federal statutory IGs, and
                                 serves on the council’s Audit and Legislation Committees.

                                 This Semiannual Report to the Congress is a part of the OIG’s statutory
                                 reporting requirements and is organized to address the major functions of
                                 the office including:

                                     •	     Significant audits, investigations, and other reviews and activities 	
                                 	          of the OIG,
                                     •	     Review of legislation and regulations affecting the Library, and
                                     •	     Library decisions on OIG recommendations and the status of 	
                                 	          implementation, along with any resulting monetary benefits.

                                 Audits are in-depth reviews that address the efficiency, effectiveness, and
                                 economy of the Library’s programs, activities, and functions; provide
                                 information to responsible parties to improve public accountability;
                                 facilitate oversight and decision-making; and initiate corrective action as
                                 needed.




Right: Thomas Jefferson’s Library, on display in the Southwest Pavil-
ion of the Library’s Thomas Jefferson Building.

Photograph: David Sharpe
 11 • Semiannual Report to the Congress
Some audits address whether financial statements fairly present financial
positions, results of operations, and cash flows. They also assess whether an
entity has adequate internal control systems and complies with applicable
laws and regulations. The OIG also performs related types of reviews such
as inspections and attestations.

Investigations are typically based on alleged or suspected wrongdoing by
agency employees, contractors, or others responsible for handling federal
resources. Violations of Library regulations or fraud committed against
the Library can result in administrative sanctions and criminal or civil
prosecution. Contact information for the OIG Hotline is located on the
inside rear cover of this report.

Our staff is educated and certified in various disciplines. We are, collectively,
five certified public accountants (CPA), one attorney, one certified internal
auditor (CIA), two certified information systems auditors (CISA), one
certified computer examiner (CCE), one access data certified examiner
(ACE), one certified forensic accountant (CFA), four seized computer
evidence recovery specialists (SCERS), four special agents, and other highly
qualified staff.

OIG reports are available at www.loc.gov/about/oig.




                                                  Semiannual Report to the Congress • 12
                                Audits, Surveys, and Reviews
                                Office of the Librarian
                                Office of Strategic Initiatives
                                Library Services
                                The Library is Taking the Right Steps to Ensure that its Web Search
                                Strategy is an Enterprise-wide Solution but Needs to Expand its
                                Oversight of Other Projects

                                Audit Report No. 2013-IT-102
                                September 2013

                                Enterprise search involves the capability to perform a Library-wide search to
                                locate information from all of the Library’s Web sites. A long-standing challenge
                                for the Library is making all of its digital collections easily accessible to the
                                public, researchers, staff, and Congress. For years, the Library lacked policies
                                and procedures for creating and maintaining digital collections in a collaborative
                                environment. We performed this evaluation to determine whether the Library’s
                                enterprise search strategy resulted in efficiencies and potential cost savings.

                                The Library is Taking the Right Steps to Ensure that its Web Search Strategy
                                is an Enterprise-wide Solution—The Library created a Web Governance Board
                                and developed a Web strategy that is standardizing how the Library’s digital
                                collections are presented on the Web. The Web Governance Board’s work is
                                addressing an issue we identified in a 2009 report by creating a comprehensive
                                search tool and developing a comprehensive index of the Library’s multiple
                                digitized collections and Web sites. We believe the Library’s search strategy will
                                result in a more effective Web presence.

                                Library Services Needs to Determine Whether any Data from its Terminated
                                Project can be Migrated into the Library’s Enterprise-wide Strategy—Library
                                Services’ decision to terminate the entire National Library Catalog project after
                                34 months of development and $1.25 million did not include an assessment of
                                whether data from the project could be salvaged and migrated to the Library’s
                                new Web search platform. We recommended that Library
                                Services collaborate with the Web Governance Board and
                                Information Technology Services (ITS) to evaluate
                                whether there is usable data from the terminated
                                IT project and to develop a plan to migrate any
                                potential data to the new platform.




Right: Mural of Adventure in the Southwest Pavilion.

Photograph: Carol Highsmith

 13 • Semiannual Report to the Congress
The Information Technology Steering Committee Should Expand
Its Oversight of Information Technology Projects—ITSC missed an
opportunity to provide oversight on the National Library Catalog project.
The ITSC was created in March 2010, nine months after Library Services
purchased software to develop the National Library Catalog. However,
the ITSC chose to consider only new (“proposed”) IT projects rather than
current IT projects that would otherwise meet the criteria for oversight.
We recommended that the Library determine whether there are any other
projects that are currently in development that did not otherwise meet the
ITSC’s criteria of being a new project, and include them under the ITSC’s
purview.

Management concurred with our recommendations, but disagreed with our
explanation of the discontinuance of the National Library Catalog.


Library-Wide

The Library Collects Extensively but Faces Increasing
Challenges in Processing, Controlling, Storing, and
Making Accessible all it Collects

Special Project No. 2013‐SP‐102
September 2013

The Library’s mission is to support the Congress in fulfilling its constitutional
duties and to further the progress of knowledge and creativity for the
benefit of the American people. To accomplish this mission, the Library
must acquire, preserve, store, and make accessible materials from around
the world that it deems relevant to the American people, Congress, and the
federal government.

In the past decade, experts thought that with the Internet/digital explosion
the material to collect would significantly shift from analog (tangible)
       material to digital. However, this shift has not occurred. While
               the volume and types of material have significantly increased,
                     cuts in staff and appropriated funds have hindered the
                         Library’s ability to accomplish other critical parts
                             of its mission—that of processing, preserving,
                               properly storing, and providing access to all
                                             of its collections.




                                                 Semiannual Report to the Congress • 14
                 In response to a 2006 OIG report that recommended that the Library reduce
                 the amount of analog material it acquires to alleviate issues surrounding a
                 lack of space and damage, the Library stated that acquisitions are a top
                 priority that is inescapable in the Library’s pursuit of fulfilling its mission.
                 The objective of this evaluation was to assess the framework of policies and
                 procedures supporting the development of Library collections and assess
                 the logistical impact of these policies and procedures. We found that the
                 Library is successful in its mission to obtain a universal collection of material
                 for future generations. However, without relief or substantially adjusting
                 its priorities, the Library is confronted with several critical challenges in its
                 processing and storage of materials. These challenges become increasingly
                 difficult to manage with the recent reductions in budget and staff. Further,
                 these challenges make it difficult for the Library to meet one of its critical
                 mission components: to make its collections accessible. To determine how
                 other national libraries addressed such challenges, we benchmarked the
                 Library with two other national libraries and found that these national
                 libraries approached similar challenges differently. Our findings are
                 discussed below.

                 The Library has been Meeting its Top Priority of Continually Obtaining
                 a Universal Collection of Both Analog and Digital Materials—Based on
                 its “canons of selection” developed in the early 1940s, the Library’s analog
                 and digital collections have grown almost 22 percent since 2003. In FY
                 2012, the Library acquired more than three million items through purchase,
                 gift, copyright deposit, and exchange and transfer from other government
                 agencies. The U.S. Copyright Office alone forwarded more than 600,000
                 copies of works to the Library’s collections in FY 2012, most of which were
                 in analog format. The Library adds reprints and new editions to its literary
                 works, such as Wuthering Heights (with 105 copies in various editions) and
                 The Adventures of Tom Sawyer (with 128 copies in various editions). The
                 Library purchased approximately 737,000 U.S. and foreign items in 2012,
                 of which more than 508,000 were foreign items, including some from third-
                 world countries. Further, the Library has the largest collection of Russian,
                 Chinese, Japanese, and Korean materials outside of those countries.

                 At its National Audio Visual Conservation Center, the Library acquires,
                 catalogs, preserves, and provides access to a collection of audiovisual
                 formats and has collected more than 1.3 million film, television, and video
                 items and nearly 3 million sound recordings containing music, spoken
                 word, and radio broadcasts. In 2012, to help guide it in its effort to collect
                 and preserve relevant material, the Library issued its National Recording
                 Preservation Plan as a result of the National Recording Preservation Act



15 • Semiannual Report to the Congress
                                                                               Left: Detail of Mural
                                                                               of Civilization in the
                                                                               Southwest Pavilion.

                                                                               Photograph: Carol
                                                                               Highsmith




of 2000. The Act required the establishment of a Board that assists the
Library in the development of a coordinated national sound recording and
collection policy, among other duties.

Although the majority of the Library’s collections are in an analog format,
it is also increasing its digital collections. For example, as of September
2012 more than 37 million original source analog items have been digitized
since 1990, and 233 billion tweets were collected through February 2013.
The Library started its digital collections via the American Memory project,
begun in 1990, which provides a digital record of American history and now
features more than 100 thematic collections online. In 2000, the Congress
appropriated monies to the Library for the creation of the National Digital
Information Infrastructure and Preservation Program, and as of 2012, the
Library had 200 partners in 47 states and 39 nations working cooperatively
to develop standards and preserve at-risk digital content.

Our audit work focused primarily on analog material. We intend to review
digital issues in subsequent audit work.

The Library is Not Able to Timely Process the Inflow of Materials it
Obtains for its Collections, Hindering Accountability, Security, and
Accessibility of Collections—As of September 30, 2012, there were more
than 28 million analog and digital items unprocessed in the Library, an
increase of almost 50 percent since FY 2000 (not including tweets). The
unprocessed arrearage currently represents 18 percent of the Library’s
total collections. Collections of manuscripts make up more than half
the arrearage. Some items, received as far back as the 1980s, have not
been processed, and other items are so unique—e.g., Balinese manuscripts
written on palm leaves—that they require specialized knowledge to process.
The Library states that it must acquire material as it becomes available
because it may not be available again, or because its importance may only
be known at a later date.



                                              Semiannual Report to the Congress • 16
                               Most unprocessed material is not available to researchers, and the bulk of
                               the material lacks adequate collection controls, including bibliographic,
                               inventory, and security controls. Bibliographic and inventory controls
                               allow the Library to account for and track materials as well as connect users
                               with the Library’s resources. Security controls, such as marks and labels, are
                               applied to newly acquired materials to help protect the collections from theft.
                               The lack of these controls increases the risk of material being stolen, lost, or
                               forgotten. Due to the absence of these controls over unprocessed materials,
                               we could not design tests to determine the extent to which the risks exist.
                               However, we observed some instances where unprocessed material was not
                               adequately secured, and other material that we attempted to locate could
                               not be found. With a significant portion of the Library’s collections in
                               arrearage, addressing the logistical challenges of accountability and security
                               for these items is key to properly safeguarding and making them accessible
                               to the public, an important component of the Library’s core mission.

                               We were not able to determine a clear cause for the arrearage. One factor
                               could be the reduction in staff while the material collected continues to
                               increase. Other factors contributing to the arrearage could be the lack of:
                               1) a digital preference for copyright deposits, 2) archivists, preservationists,
                               and catalogers with knowledge in various languages and experience working
                               with rare, old, fragile, or unique material, 3) a system-wide strategy that
                               marries its collections efforts to available staff and proper storage, or, 4) a
                               coordinated national collections effort and policy, similar to that developed
                               under the National Recording Preservation Plan.

                               The Library Faces a Challenge in its Mission to Properly Store its
                               Collections—The Library’s most prized storage facility is the historic
                               Thomas Jefferson Building, opened in 1897, where many of America’s
                               Heritage assets are stored. However, the Jefferson Building currently houses
                               upwards of a million overflow volumes, far exceeding its capacity. This
                               excess is causing premature damage and deterioration to some of the items,
                               and requiring staff to periodically shift materials to avoid structural damage
                               to the building due to excessive weight. According to the Architect of
                               the Capitol (AOC), the agency that manages the Library’s buildings, the
                               Library’s three Capitol Hill buildings are collectively at 110 percent of their
                               capacity.

                               Preservation of Library materials requires appropriate temperature and
                               relative humidity; different formats have different ideal temperatures and
                               humidity set points. Sophisticated, highly secure storage buildings (modules)


Right: Ornamental Detail in the Southwest Pavilion.

Photograph: Carol Highsmith

 17 • Semiannual Report to the Congress
were authorized by the Congress, with the first module opened in 2002.
However, only four units have been constructed. Even if funding is received
and the fifth module is built, the resulting space would not accommodate
the overflow. The Library estimates that it needs a new module every two
years for its ever-growing collections of books and bound periodicals. The
Library leased a temporary facility in 1975, but the facility is not adequate
for the Library’s security and preservation needs. The Library has paid $51
million in rent over the lease term (which is the equivalent of approximately
three new modules) and plans to rent for another 10 years, paying another
$36 million—the cost equivalent of two additional modules. The Library
identified an additional temporary solution in a National Archives and
Records Administration facility in Illinois, but it only accommodates a
small part of the overflow, and it is not easily accessible. As the Library adds
an average of more than 3 million items, including an average of 447,000
books and periodicals, to its collections annually, the shortage of space will
continue to grow.

Other National Libraries Faced Similar Reductions in Funding and
Space Issues but have Addressed them Differently—The British Library
and Library and Archives Canada (Canadian Library) realized that “staying
the course” and “going it alone” in their collection strategy were not viable
options because of the economic and budgetary environment and because
it was no longer achievable or appropriate to universally collect due to the
increasing magnitude of published material. Our benchmarking with these
libraries indicated that both institutions:

•	 revised their collection strategy. The British Library will not expend
   significant funds toward material that is “adequately achieved” in
   the country of origin, will not acquire in areas well served by other
   libraries, and focused its approach on a smaller number of subject
   priorities. The Canadian Library recently adjusted its acquisition
   strategy to focus on Canadian heritage material and established a more
   collaborative approach with provincial and territorial libraries to build
   complimentary collections.

•	 recently increased their storage capacity. The British and Canadian
   Libraries received funding for storage facilities that enabled the
   discontinuation of a number of lease-held facilities and increased its
   storage capacity to accommodate future acquisitions.
                                •	 are transitioning to digital deposit as a preferred method for copyright
                                   material. Going forward, the British Library’s preference is digital rather
                                   than analog for its material that is similar to the Library’s copyright
                                   deposits. Also, the British Library has placed greater emphasis on
                                   attracting external investments and fundraising to supplement funding
                                   for library initiatives (and has secured an agreement with Google to
                                   digitize 250,000 out-of-copyright books from the British Library
                                   collections at Google’s expense). Digital is now the Canadian Library’s
                                   default choice in the acquisition of material.

                                Options for the Congress and Library to Consider—The Library acquires
                                materials at rates that exceed its ability to timely process, make accessible,
                                and safely store them. Results of this imbalance are evident by the issues
                                we discuss in this report. We are not making recommendations in this
                                report because some solutions may require congressional action, but we are
                                presenting short- and long-term considerations. According to the Library,
                                “the acquisition policies of the Library are what have made it–and what
                                will keep it–the greatest repository of knowledge in history and a source of
                                national pride. Changing acquisition policies will fundamentally change
                                the nature of the Library of Congress.”

                                Congress may decide to maintain the current acquisition policies and
                                collection rate because it is of vital importance to the Library, Congress,
                                and the nation. Nonetheless, there is an imperative for the short-term that
                                Congress should consider:

                                1.	 The Library needs resources to process and obtain sufficient, adequate
                                    facilities to store the current arrearage and overflow. The issues that
                                    we highlight in our report are symptomatic and, if resources are not
                                    provided for processing and storage capacity, will increasingly impair
                                    the Library’s ability to meet its congressional mission.

                                For the long-term, some options Congress may want to consider are to:

                                2.	 Require the Library to create a system-wide strategy that marries future
                                    collections efforts to its ability to timely process, properly store, and
                                    make accessible the material it acquires. This strategy may require
                                    Congress to establish changes in how the Library collects, such as only
                                    digitally for newly copyrighted materials (similar to our benchmark
                                    libraries), and the amount it collects in any given year; it may require
                                    the Library to aggressively pursue additional private monies to provide
                                    for housing and processing its collections, rather than totally relying
Right: Detail of Mural of Civilization in the Southwest Pavilion.

Photograph: Carol Highsmith

19 • Semiannual Report to the Congress
    on congressional funding; and it may require
    other tactics such as expanding the Library’s
    internship programs with colleges and universities
    in preservation and cataloging.

3.	 Create a board similar to that required in the
    National Recording Preservation Act of 2000 that
    can develop, among other things, a coordinated
    national acquisitions and collections policy and
    “trusted partnerships” with organizations in the
    public and private sectors, similar to arrangements
    that other national libraries have made.

Management Response and OIG Comments—
The Library agreed with our finding that it has been
meeting its top priority of continually obtaining a
universal collection of materials. The Library stated that
sustaining a collection that meets the needs of Congress
and the American people is essential and is its pre-
eminent consideration. The Library acknowledged that
it was not able to timely process the current arrearage
and attributed delays in processing acquisitions
to “primarily a matter of resources.” However, it
disagreed with our narrative regarding the arrearage in
manuscripts and feels that our report does not take into
account that many of these collections will be processed
at the macro level, and that processing times will often
vary even with a consistent level of processing resources.
We agree that processing times will vary. The arrearage
numbers used in our report are taken directly from the
Library’s annual reports to Congress; the Library does
not report data on processing times of the various types
of material it collects, and our evaluation did not attempt
to perform such time and motion studies. However, we
did analyze the trend of material in arrearage since 2000;
regardless of manuscripts’ proportion of the arrearage,
the arrearage amount continues to increase while the
resources to process it diminish. We acknowledge the
Library’s initiatives to manage the arrearage, but there is
no evidence that any or all of them will materially affect
the current arrearage trend, and the initiatives will not
change the imperative for the short term.
                 The Library agreed that the growing magnitude of the collections puts an
                 overwhelming demand on the Library’s storage space and that it comes
                 at a cost. However, the Library further stated that a number of examples
                 cited in the report, including photographs, mischaracterized the impacts
                 of delayed processing and were not representative of overall conditions
                 at the Library. There are many effects from the delay in processing and
                 our report is not meant to be representative of conditions at each building
                 and division. For example, at Ft. Meade we did not observe any adverse
                 storage conditions; on the other hand, the Architect of the Capitol has
                 stated that the three Capitol Hill buildings are collectively over capacity
                 and requested that excess materials stored on booktrucks be moved around
                 to prevent compromising the structural integrity of the bookstacks. Finally,
                 in assessing OIG benchmarking with the British Library and Canadian
                 Library, the Library stated it is acting on most of the areas we identified,
                 but management does not believe that changing collections development
                 policies is a responsible option for the Library and that reductions in other
                 libraries’ collections scopes impose a greater reliance on the Library of
                 Congress to fill the gaps created by those reductions.

                 Prior to issuing our draft report for the Library’s comments, we conducted a
                 meeting with Library Services’ senior management to obtain their feedback.
                 Overall, Library Services agreed with the general message of the report and
                 felt that it positively characterized the issues addressed.

                 The full report included a summary of Library Services senior management’s
                 comments.

                 Open World Leadership Center

                 Fiscal Year 2012 Financial Statements

                 Audit Report No. 2012-FN-103
                 May 2013

                 The mission of the Open World Leadership Center (Open World) is to
                 enhance understanding and capabilities for cooperation between the United
                 States and the countries of Eurasia. In pursuing its mission, Open World has
                 developed a network of leaders in those regions who have gained significant,
                 firsthand exposure to America’s democratic, accountable government and
                 its free-market system.

                 Since Open World’s founding by the Congress in 1999, it has emerged
                 as a unique resource for members of Congress and their staff by assisting
                 Congress in its foreign policy oversight responsibilities. In this capacity,


21 • Semiannual Report to the Congress
Open World conducts one of the largest U.S. exchange programs for Eurasia,
through which nearly 7,000 volunteer American families in all 50 states
have hosted thousands of emerging leaders from former Soviet countries. As
a result of these exchanges, hundreds of projects and partnerships beneficial
to all have been initiated and enhanced.

Open World is an independent entity in the legislative branch governed
by a board of trustees. Board members consist of members of the Congress
and private citizens. Serving the board of trustees is an audit committee
comprised of three members with extensive experience in Congress, federal
agency operations, finance, and accounting. The audit committee provides
oversight by assuring that Open World management appropriately carries
out its responsibilities for internal control, financial reporting, compliance
with laws and regulations, ethics, and economies and efficiencies.

Under contract with the OIG, the accounting firm of CliftonLarsonAllen
(CLA) audited Open World’s FY 2012
financial statements and issued its
Independent Auditor’s Report. The audit
included Open World’s balance sheet
and the related statements of net cost,
changes in net position, and combined
statements of budgetary resources for
FY 2012. The auditors concluded that
the financial statements were presented
fairly in all material respects, and in
conformity with U.S. generally accepted
accounting principles. The firm’s auditors
also performed tests of compliance with
laws and regulations, and considered
internal controls over financial reporting.
In its audit of Open World, CLA found no
material weaknesses in internal control and
no reportable noncompliance with the laws
and regulations it tested.




                                              Above: Thomas Jefferson’s Library, on display in the Southwest Pavil-
                                              ion of the Library’s Thomas Jefferson Building.

                                              Photograph: David Sharpe

                                               Semiannual Report to the Congress • 22
                 Library Services
                 Office of Support Operations
                 Facilities and Space Utilization of Critical
                 Management Projects

                 Project No. 2013-AT-101 (Status Report)
                 September 2013

                 The OIG initiated a survey of Library facilities in December 2012. The
                 objective of the survey is to evaluate the Library’s plans for continuing
                 operations at the National Library Service (NLS) for the Blind and
                 Physically Handicapped Taylor Street Facility. As part of this process we
                 began reviewing the Library’s plans for relocating operational elements of
                 NLS, copyright deposits, and the Library’s logistics funtion—currently
                 located at the Landover Center Annex—to a new multi-purpose facility.
                 We also began assessing the Library’s progress in addressing facility-related
                 concerns from prior OIG audits including logistics, space utilization,
                 and lease agreements. The goal of our survey is to identify critical facility
                 management projects with material funding implications that require
                 further OIG audit fieldwork during FY 2014.

                 During the course of our survey the auditor in charge of the project had
                 to take extended leave. Accordingly, we placed the project on hold. We
                 anticipate that the project will resume at the beginning of the second
                 quarter of FY 2014. Although the survey is not fully completed, we issued
                 to management a memorandum that discussed several focus areas for
                 consideration, but made no recommendations.

                 We observed that the most recent analysis of service unit utilization of
                 collection storage space is outdated with the last analysis occurring in
                 December 2011. Given the continuing flow of new acquisitions and the
                 related growth in collections arrearage, an updated analysis is important to
                 managing storage space.

                 We identified old inventory held beyond the two-year limitation and
                 noted that the stand-alone system for tracking non-collections inventory
                 at Landover is limited. Furthermore, open purchase orders on file are not
                 reconciled with the issuing service units, nor aged to assure accuracy and
                 aid in managing deliveries and receipts. We were advised that reductions in
                 staff have left this control function undone. Also, due to a staffing shortfall
                 there is no separation of duties for receiving materials and recording the
                 transactions into an inventory tracking system.



23 • Semiannual Report to the Congress
Observations by the OIG and the Library’s Office of Security and Emergency
Preparedness noted that there is uncontrolled access to collections materials
and that exposure to unauthorized access increases with limited staff.

We also noted that Landover is not suited for preservation of collections
due to its environmental conditions, inadequate storage systems, and other
issues, and that AOC considers the Landover Center Annex to be in poor
condition.

We intend to complete additional fieldwork in FY 2014 and to formally
report our findings to Library management.




                                              Above: Book from the Library of Congress Collections
                                              on the Architect Palladio.

                                              Photograph: Carol Highsmith

                                              Semiannual Report to the Congress • 24
         Investigations
         During the reporting period, we opened 37 investigations and closed 49. We forwarded three investigations
         to Library management for administrative action. Four investigations were forwarded to the Department
         of Justice for criminal prosecution, two were accepted. None are pending. Investigation case and Hotline
         activities are detailed below.


          Table 1: 	        Investigation Case Activity
                                         Criminal/Civil          Administrative                 Total
          From Prior Reporting Period          41                       5                        46
          Opened                               17                       20                       37
          Closed                               33                       16                       49


          End of Period                        25                       9                        34


          Table 2: 	        Hotline Activity
                                                                        Count
          Allegations received                                              27
          Referred to management                                             6
          Opened as investigations                                          12
          Opened as audit                                                    0
          Referred by audit division                                         1
          Closed with no action                                              9




25 • Semiannual Report to the Congress
Significant Criminal, Civil, and
Administrative Investigations

Employee Misconduct

In our March 2013 Semiannual Report to the Congress we reported that
the OIG received a harassment complaint about an employee using their
Library computer to threaten a former acquaintance. The employee had
posed as the victim and posted 111 Craigslist ads from his Library of Con-
gress computer for sexual encounters. OIG investigators executed nine
search warrants, issued twelve Grand Jury subpoenas, and presented the
case to the U.S. Attorney’s Office for prosecution. The employee was sub-
sequently arrested and indicted for stalking from a federal facility, violating
the terms of a protective order, and identity theft and has been held without
bail due to the serious nature of the crimes. During this reporting period,
the employee was terminated from the Library. Sentencing is set for No-
vember 15, 2013.

As a result of this case, the OIG recommended that the Library block em-
ployee access to certain Web sites. Additionally, the OIG issued a report
detailing the failure of the employee’s manager to identify and effectively
deal with prior complaints about the employee.

The OIG also investigated an allegation that an employee was fabricating
credit hour requests and falsifying time and attendance records. The em-
ployee’s former supervisor reported that the employee’s productivity records
did not justify the overtime and credit hours claimed. During the investi-
gation, the employee admitted to falsely claiming 20 hours of overtime and
91 credit hours. The employee was issued a 30-day suspension for falsifying
time and attendance records.

Laptop Theft

A former contractor who was terminated from the Library for failing to
pass a required background check was in possession of three Library laptop
computers before being removed from the Library contract. Two of the
laptops were returned after the contractor was removed, along with an older
model laptop not belonging to the Library; one laptop remains missing.
Subsequent record searches indicated that the suspect sold several laptops
over the past year to pawn shops. However, none of the pawned computers’
serial numbers matched the stolen Library laptop. OIG investigators
presented the case to the U.S. Attorney’s Office but they declined to
prosecute.


                                                Semiannual Report to the Congress • 26
                 Referrals and Assistance to Other Law Enforcement Agencies

                 In April 2013, OIG agents transported the Music Division’s Kriesler violin
                 to the Walter Reed Medical Center for a computerized tomography scan.
                 The scan and trip were completed without incident.

                 In July 2013, an individual in one of the Library’s reading rooms was ob-
                 served stealing headphones from a patron. The OIG referred the incident
                 to the U.S. Capitol Police (Capitol Police) and provided video footage of
                 the theft to assist with their case. Additionally, the individual had accessed
                 the reading room by using a reader registration card issued to another pa-
                 tron. The reader registration card was confiscated and the patron was subse-
                 quently banned from the Library.

                 An August 2013 visitor to the Library’s Web site left a threatening message
                 on an electronic contact form. The message originated in Egypt and was
                 referred to the Threat Analysis Division of the Capitol Police.

                 The OIG assisted the Metropolitan Police Department with an investiga-
                 tion into potentially fraudulent claims filed by a former spouse of a de-
                 ceased Library employee. The investigation found no wrong-doing on the
                 part of Library staff.

                 In September 2013, there was an attempt to use social engineering to ob-
                 tain press credentials to a media area of a Library Web site. This attempt
                 was referred to the FBI for further investigation.

                 Also in September 2013, the Library was targeted by an outside party at-
                 tempting to compromise the Library’s external Web servers. The OIG as-
                 sisted with the coordination between the Library and the FBI in addressing
                 this attack to disrupt the Library’s publicly-accessible networks.

                 Follow-up on Investigative Issues from Prior
                 Semiannual Reports

                 Securiguard Settlement Payment Begins

                 In our September 30, 2012 Semiannual Report to the Congress, we re-
                 ported on overbilling by the Library’s security contractor, Securiguard, Inc.
                 (Securiguard). Working with the U.S. Attorney for the District of Colum-
                 bia, OIG investigators successfully demonstrated their case and Securiguard
                 agreed to pay a $1 million settlement. During this semiannual period, an
                 installment of $183,432 was received from Securiguard.



27 • Semiannual Report to the Congress
Theft of Computers

During the previous reporting period the OIG received a complaint of the
theft of a Library laptop computer awaiting disposal. The investigation
found that there were three laptops missing from a locked storage container
that houses computers prior to decommission and disposal. One of the
laptops was recovered and forensic analysis determined that there was no
Library sensitive data on the computer. We had previously recommended
improving this process in an earlier IT audit. The two remaining laptop
computers have not been recovered. The OIG issued a Management Im-
plication Report suggesting improvements in surplus computer processing.
These suggestions resulted in Information Technology Services (ITS) taking
over the responsibility for wiping all computer disc drives after equipment
is pulled from use. This change should help eliminate any potential loss of
personally identifiable information from non-sterilized surplus computers.

Disruption of Government Business

In 2012, the Copyright Office notified the OIG of a nuisance caller. We
referred the case to the Capitol Police Threat Analysis Division and are
continuing to assist in this effort. However, after disrupting the Copyright
Office during an in-person visit in May 2013, the patron was barred from
the Library for a year.

Attempted Removal of Government Property

The Capitol Police referred a matter to the OIG concerning a property pass
forgery and a subsequent attempt to remove a Library laptop computer. The
OIG referred the matter to the employee’s manager. The employee entered
into an alternative discipline agreement with the Library which was the
equivalent of a five-day suspension. The employee agreed to forfeit three
days of annual leave to the Library’s leave bank, and the other two days were
held in suspension, pending good behavior for a year.

In a separate case, an employee attempting to remove a Library laptop com-
puter without a valid property pass was stopped by the Capitol Police. With
the same property pass, the employee attempted to leave via another build-
ing exit and was stopped at that post. The matter was referred to the OIG
who notified the employee’s management team. The employee received a
formal counseling letter.



                                              Left: Stucco Design on the Barrel-Vaulted Ceiling of the
                                              Northwest Gallery. The ‘CL’ stand for Congressional Library.

                                              Photograph: Carol Highsmith

                                               Semiannual Report to the Congress • 28
                               Based on this and other attempted theft cases, the OIG met with Library
                               management who issued a Library-wide reminder about the proper proce-
                               dures and property pass requirements to remove Library equipment.




Above: Domed Ceiling of Northwest Pavillion of Art and Science Featuring
the Mural, Ambition by William De Leftwich Dodge.

Photograph: Carol Highsmith

 29 • Semiannual Report to the Congress
Other Activities
Inspector General Responds
to Congressional Inquiry
April 2013

The OIG responded to a request from Representatives Henry Waxman and
Edward Markey, and Senators Sheldon Whitehouse and Benjamin Cardin,
Co-Chairs of the Bicameral Task Force on Climate Change. The task force
requested that the OIG conduct an assessment of the Library’s efforts to
address climate change. We forwarded the Library’s Office of the General
Counsel evaluation of applicable laws and regulations and a description of
our audit work performed on energy consumption and conservation. These
audits recommended that the Library collect data to make informed infra-
structure decisions such as migrating to cloud-based computing and stor-
age solutions and undertake initiatives to increase awareness among Library
staff of the importance of energy conservation and recycling programs. We
also provided a listing of the Library’s and the AOC’s programs and accom-
plishments in energy conservation and sustainability.

Inspector General Responds
to Congressional Inquiry
June 2013

The OIG responded to a request from Representative Darrell Issa, Chair,
and Representative Elijah Cummings, Ranking Member, House Commit-
tee on Oversight and Government Reform, about information on open
and unimplemented OIG recommendations, and recommendations with
estimated cost savings. The Congressmen requested that the OIG identify
and report on the three most important open and unimplemented recom-
mendations, the number of recommendations accepted and implemented
by the Library, and the estimated cost savings associated with the open
recommendations.

Peer Review of the Library OIG
During this reporting period, the U.S. Securities and Exchange Commis-
sion (SEC) OIG conducted a peer review of our audit division for the
year ended March 31, 2013. The objective of the review was to determine
whether audit quality controls were designed and operating in conformity
with applicable professional standards in all material respects. Federal au-
dit organizations may receive a rating of pass, pass with deficiencies, or fail.
Our office received a rating of pass. The SEC OIG issued a separate letter
containing a finding related to documenting overall assessments of the col-



                                                 Semiannual Report to the Congress • 30
                 lective evidence that is used to support findings and conclusions, but ex-
                 plained that the finding was not considered to be of sufficient significance
                 to affect its opinion of the assessment of our audit operations. The SEC
                 OIG further stated that in reviewing the audit documentation, it found
                 no instances where evidence was insufficient to support audit findings or
                 conclusions. Although the finding was not sufficiently significant, we have
                 addressed the finding by updating our policy and procedures including
                 implementing a template to facilitate documenting overall assessments of
                 collective evidence for every audit.

                 Peer Review of the Corporation for Public Broad-
                 casting OIG

                 During this reporting period we conducted a peer review of the audit op-
                 erations of the Corporation for Public Broadcasting (CPB) OIG. The CPB
                 OIG is responsible for designing a system of quality control and complying
                 with it to provide reasonable assurance of performing and reporting on its
                 audit activity in conformity with applicable professional standards in all
                 material respects. Our peer review responsibility was to express an opinion
                 on the design of the system of quality control and CPB OIG’s compliance
                 with that system. Federal audit organizations can receive a rating of pass,
                 pass with deficiencies, or fail.

                 We reviewed the system of quality control for the audit operations of the
                 CPB OIG in effect for the year ended March 31, 2013. Our review was
                 conducted in accordance with Government Auditing Standards and guide-
                 lines established by the Council of the Inspectors General on Integrity and
                 Efficiency. In performing our review, we obtained an understanding of the
                 system of quality control for the CPB OIG’s audit organization. In addi-
                 tion, we tested compliance with the CPB OIG’s quality control policies
                 and procedures to the extent we considered appropriate. In our opinion,
                 the system of quality control was suitably designed and complied with to
                 provide reasonable assurance of performing and reporting in conformity
                 with applicable professional standards in all material respects. CPB OIG
                 received a peer review rating of pass.




31 • Semiannual Report to the Congress
Review of Legislation and Regulations

Table 3:                  Review of Library of Congress Regulations (LCRs) and Directives
           Reviewed                                   Comments by the Office of the Inspector General
LCR 414-1
Marking of Tangible Library         We offered no substantive comments regarding this LCR.
Materials
                                    We recommended that the Library periodically inventory all top treasures and further compare the
LCR 620	
                                    items to preservation documentation to assure authenticity. We recommended that a security escort
Top Treasures: Definition and
                                    and dual control be required upon access and that employees have appropriate security clearance for
Policies for Selection, Handling
                                    handling these items. We also recommended that the OIG be notified immediately if a top treasure
and Care, Viewing and
                                    is discovered to be lost, stolen, or missing, and that the LCR clarify the language concerning top
Emergencies
                                    treasure loans.
LCR 900		
Circulation of Material from the    We offered no substantive comments regarding this LCR.
Collections of the Library
LCR 910		                           We recommended clarification of the term ‘personally responsible for’ regarding collection items
Eligible Borrowers of Materials     borrowed by congressional members and their staff. We suggested clarifying ‘a defined period of time’
from the Collections of the         for external use of materials. We opined that it was not clear how the Library will protect materials
Library                             from mutilation or theft by retired employess.
LCR 911		
Lending of Library Materials for    We offered no substantive comments regarding this LCR.
Exhibition

LCR 920	                            We suggested mirroring similar language used in LCR 910-Eligible Borrowers of Materials from the
Internal Circulation of Materials   Collections of the Library, regarding disciplinary action.

LCR 1550
                                    We suggested that the Office of the Chief Financial Officer annually review 1) the validity of certifiers,
Accountable Financial Officers
                                    2) all imprest cash fund information for accuracy, and 3) validated approved cashiers.
and Government Cashiers
LCR 1615-1
                                    We suggested that the Office of the Chief Financial Officer identify items that should be treated as
Asset Control of Equipment and
                                    accountable property for the purposes of tracking and inventory.
Furniture
                                    We recommended that all required documents/forms are clearly identified in the LCR. We suggested
                                    adding a Continuity of Operations Plan (COOP) section and requiring all employees who are
                                    expected to telework during a COOP event to have a telework agreement in place and training for
LCR 2014-8                          such events. We recommended that supervisors ensure applications are complete and adequately
Telework (Working Offsite)          describe the work performed under the telework arrangement and state how it will be measured.
                                    We suggested defining the number of days necessary for the advance notice of a telework agreement
                                    suspension or cancellation. We also recommended requiring employees to notify supervisors in
                                    writing if government-issued equipmnet is lost, damaged, or stolen.
                                    We commented that all applicible statutes and regulations should be cited in the LCR notes. We
LCR 2010-16
                                    suggested that the phrase ‘positions difficult to fill’ be clarified. We questioned whether the Office of
Advertisements for Vacancy
                                    Contracts and Grants Management needs to be involved in vacancy advertisment if the advertisement
Announcements
                                    requires a fee.
                                    We recommended that the Office of the General Counsel (OGC) define Library employment and
                                    that the definition include the applicability of leave of absence, sabbaticals, travel time, as well
                                    as inventions occurring as a result of collaborations with others as a result of conducting Library
LCR 2023-3.1
                                    business. We recommended that a section/clause be inserted which states that supervisors, division
Patent Rights in Inventions by
                                    chiefs, or service unit heads that become aware of inventions made by employees as part of their
Library of Congress Employees
                                    Library employment must consult with the employee to determine if a disclosure report has been
                                    made or initiated, and if the employee refuses to comply, the service unit head should consult with
                                    OGC.
                                                                                Semiannual Report to the Congress • 32
Unimplemented Recommendations
Table 4A: 	    Significant Recommendations from Previous Semiannual
               Reports for Which Corrective Action Has Not Been Completed
       Subject           Report No.         Office         Rec.               Summary and Status of
                         Issue Date                        No.                  Recommendation
Office of the Librarian (LIBN)
                                                                   System managers for Raiser’s Edge should regularly
                                                                   review the system’s transaction logs for suspect data
                                                                   events—The Library’s current solution for log man-
Raiser’s Edge             2006-IT-302     Development              agement requires customization to monitor Raiser’s
                                                            III
Software Program         December 2007       Office                Edge. FY 2013 funding is unavailable for this or
                                                                   an alternative log management solution. Library
                                                                   management defers action on this until the second
                                                                   quarter of FY 2014.
                                                                   Create a policy using Internal Revenue Service
                                                                   rules to properly classify workers as independent
                                                                   contractors or employees and require service units
                                                                   to submit documentation on the test to the Office
                                                                   of Contracts and Grants Management (OCGM)
                                                                   for nonpersonal contract services—The Office of
                         2010-PA-105      Office of the            the General Counsel (OGC) has provided train-
Multi-Sector Workforce                                     III.1
                         March 2011      General Counsel           ing to OCGM staff on this issue and intends to
                                                                   provide similar training in the first quarter of FY
                                                                   2014 to other offices. The issues related to captur-
                                                                   ing the correct information on the form have been
                                                                   resolved, and the form itself is being revised. The
                                                                   target date for implementation is the first quarter
                                                                   of FY 2014.
                                                                   Revise the performance management directives to
                                                                   address requirements for service unit verification
                                                                   and validation of performance data. Data require-
                                                                   ments should compliment the specific, measureable,
                                                                   achievable, relevant, timebound (SMART) criteria
                                                                   applied to performance measurements. Verification
                                                                   requirements should address data completeness, ac-
                                                                   curacy, and consistency as well as the related quality
Performance-based         2013-PA-101                              control practices for ensuring data will be of suf-
                                          Library-wide     I.1
Budgeting III             March 2013                               ficient quality to document performance and sup-
                                                                   port decision-making. Validation procedures should
                                                                   assure that the data are appropriate for the perfor-
                                                                   mance measurement—As a part of the transition to
                                                                   the new Library Manual system, the Strategic Plan-
                                                                   ning Office (SPO) will revise the performance man-
                                                                   agement requirements to include verification and
                                                                   validation. The target to complete the effort is the
                                                                   first quarter of FY 2014.




 33 • Semiannual Report to the Congress
Table 4A: 	     Significant Recommendations from Previous Semiannual
                Reports for Which Corrective Action Has Not Been Completed
        Subject         Report No.       Office       Rec.               Summary and Status of
                        Issue Date                    No.                  Recommendation
                                                              SPO should take a more effective role in evaluating
                                                              the adequacy of service unit data used to measure
                                                              progress towards performance targets. We suggest
                                                              implementing a process similar to National Archives
                                                              and Records Administration’s metric specification
                                                              document to define and prequalify performance
                                                              data and related performance measures during the
                                                              formulation stage of the performance cycle. That
                                                              document should require service units to identify
                                                              and define the performance data used to measure
                                                              progress towards performance targets. Service units
 Performance-based      2013-PA-101                           should also document how they intend to both ver-
                                       Library-wide   I.2
 Budgeting III          March 2013                            ify the performance data and validate how the data
                                                              relates to the performance measurement—SPO will
                                                              develop a template describing how to create a per-
                                                              formance target by the fourth quarter of FY 2013.
                                                              The enhanced eLCplans system, that will go into
                                                              production in time for the FY 2014 formulation
                                                              phase of the planning and budgeting framework,
                                                              will require designated service unit managers and
                                                              executives to review and approve performance tar-
                                                              gets. SPO will provide additional hands-on guid-
                                                              ance that will culminate in final implementation by
                                                              the second quarter of FY 2014.
                                                              SPO should review the metric specification docu-
                                                              ment for completeness and assure that service unit
                                                              descriptions of its verification and validation ac-
                                                              tivities meet performance methodology require-
 Performance-based      2013-PA-101                           ments—After service units complete their input
                                       Library-wide   I.3
 Budgeting III          March 2013                            for the Library’s annual plan, SPO will review the
                                                              completed templates, work to resolve any issues,
                                                              and recommend changes to the Deputy Librarian.
                                                              Target date for implementation is the second quar-
                                                              ter of FY 2014.
                                                              Incorporate in the financial statements, where ap-
                                                              plicable, management discussion and analysis in-
                                                              formation about why it fell short of performance
                                                              targets and related goals, plans, and schedules for
                                                              achieving unmet goals going forward, assessments
                                                              of whether the performance goals are impractical or
                                                              infeasible, and if still viable, disclosure of the action
 Performance-based      2013-PA-101                           management must take for future success—Begin-
                                       Library-wide   II.1
 Budgeting III          March 2013                            ning with year-end performance information for FY
                                                              2013, SPO will require explanations of why targets
                                                              were not fully successful and actions to be taken to
                                                              improve performance. The Library will include this
                                                              information in the Management’s Discussion and
                                                              Analysis (MD&A) section of its FY 2013 Financial
                                                              Statements. Target date for implementation is the
                                                              first quarter of FY 2014.



                                                             Semiannual Report to the Congress • 34
Unimplemented Recommendations
Table 4A: 	      Significant Recommendations from Previous Semiannual
                 Reports for Which Corrective Action Has Not Been Completed
       Subject          Report No.             Office          Rec.              Summary and Status of
                        Issue Date                             No.                 Recommendation
Office of the Librarian (LIBN) Continued
                                                                      Library management add to its MD&A disclosures
                                                                      an explanation of how it ensures the accuracy and
                                                                      reliability of the data used to measure progress to-
                                                                      wards each of its performance goals, including an
                                                                      identification of: 1) the means used to verify and
                                                                      validate measured values, 2) the sources for the data,
                                                                      3) the level of accuracy required for the intended use
Performance-based        2013-PA-101                                  of the data, 4) any limitations to the data at the re-
                                             Library-wide      II.2
Budgeting III            March 2013                                   quired level of accuracy, and 5) how the agency has
                                                                      compensated for such limitations if needed to reach
                                                                      the required level of accuracy—Beginning with the
                                                                      Library’s FY 2014 Financial Statements, the report
                                                                      will describe the process used to validate and certify
                                                                      accuracy of the performance information recorded
                                                                      in the MD&A section. Target date for implementa-
                                                                      tion is the first quarter of FY 2015.
                                                                      Library management develop a separate performance
                                                                      accountability report tailored to fit the Library’s
                                                                      compliance with the spirit of the Government Per-
                                                                      formance and Results Act and the Modernization
                                                                      Act and fully disclose to stakeholders and the public
                                                                      the annual results of its performance management
                                                                      efforts. The Library should place this report on its
                                                                      public Web site—The Library has begun developing
Performance-based        2013-PA-101                                  a Performance and Accountability Report (PAR) us-
                                             Library-wide      II.3
Budgeting III            March 2013                                   ing FY 2012 performance and accomplishment in-
                                                                      formation. The draft PAR incorporates most of the
                                                                      elements described in the OIG report. At the end of
                                                                      FY 2013, the Library will refine the draft PAR’s lay-
                                                                      out and populate it with FY 2013 performance in-
                                                                      formation. The Library will publish a FY 2014 PAR
                                                                      on its public Web site at the end of 2014. Target
                                                                      date for full implementation is the second quarter
                                                                      of FY 2015.
Office of Support Operations (OSO)
                                                                      The Library should determine whether centralizing
                                                                      teleworking policy-making authority in a Telework
                                                                      Coordinator would add value to the program—Re-
                                                                      visions to the Library’s telework regulation include
                                                                      a Telework Steering Committee (TSC) to assess
                                                                      the effectiveness of the Library’s telework strategy,
                                                                      review of emerging best practices in other govern-
                                                                      ment agencies and the private sector, assessment of
                         2010-PA-102       Office of Support
Telework Program                                               I.1    infrastructure equipment, and a recommendation
                          June 2011           Operations
                                                                      of processes to address changes in technology and
                                                                      facilitate telework objectives. The revised telework
                                                                      regulation has been reviewed by the Library of Con-
                                                                      gress Regulation (LCR) Working Group and com-
                                                                      ments have been forwarded via OGC to the Human
                                                                      Resources Services (HRS) Director for final revi-
                                                                      sion. The target date for implementation is the first
                                                                      quarter of FY 2014.

35 • Semiannual Report to the Congress
Table 4A: 	    Significant Recommendations from Previous Semiannual
               Reports for Which Corrective Action Has Not Been Completed
       Subject         Report No.        Office          Rec.              Summary and Status of
                       Issue Date                        No.                 Recommendation
                                                                The Library should collect data on, and evaluate
                                                                the costs and benefits of, teleworking to determine
                                                                whether it provides a cost-effective means to per-
                       2010-PA-102   Office of Support
Telework Program                                         I.3    form specific work requirements—See response to
                        June 2011       Operations
                                                                recommendation I.1 above. Also, it is anticipated
                                                                that the TSC, when approved, will conduct a cost-
                                                                benefit analysis in the second quarter of FY 2014.
                                                                The Library should develop a telework health and
                                                                safety checklist and incorporate it into its telework
                                                                agreement forms—Under the revised telework reg-
                       2010-PA-102   Office of Support          ulation, the TSC will develop a health and safety
Telework Program                                         I.4
                        June 2011       Operations              checklist, which each teleworking employee must
                                                                complete and submit to his/her immediate supervi-
                                                                sor. Target date for implementation is the first quar-
                                                                ter of FY 2014.
                                                                The Library should develop an interactive telework
                                                                training program and require teleworkers and their
                                                                managers to successfully complete it before begin-
                       2010-PA-102   Office of Support          ning telework—An interactive telework training
Telework Program                                         I.5
                        June 2011       Operations              program has been developed and will be released to
                                                                coincide with the revised telework regulation. Tar-
                                                                get date for implementation is the first quarter of
                                                                FY 2014.
                                                                The Library should revise LCR 2014-8 to address
                                                                the permissibility of accessing sensitive, unclassified,
                                                                and “For Official Use Only” data at offsite loca-
                                                                tions—The LCR is being revised to ensure compli-
                                                                ance with existing Library directives on handling of
                       2010-PA-102   Office of Support
Telework Program                                         I.6    sensitive materials at offsite locations. The revised
                        June 2011       Operations
                                                                telework LCR has been reviewed by the LCR Work-
                                                                ing Group and comments have been forwarded via
                                                                OGC to the HRS Director for final revision. Target
                                                                date for implementation is the first quarter of FY
                                                                2014.
                                                                The Library should review positions to determine
                                                                whether they are prone to telework and do not cre-
                                                                ate an additional burden on other areas—The tele-
                                                                work LCR is being revised to require that the na-
                       2010-PA-102   Office of Support          ture of the work required of the position must be
Telework Program                                         II.1
                        June 2011       Operations              suitable for telework and that such telework does
                                                                not adversely affect the workload or effectiveness of
                                                                the teleworker, the supervisor, or other employees.
                                                                Target date for implementation is the first quarter
                                                                of FY 2014.
                                                                The Library should institute policies requiring the
                                                                availability of teleworkers by email, telephone, and
                                                                in person when needed, including the use of remote
                                                                call coverage for positions involving frequent tele-
                       2010-PA-102   Office of Support
Telework Program                                         II.2   phone use—The revised telework LCR will require
                        June 2011       Operations
                                                                teleworkers to be available for timely contact by
                                                                telephone and email during duty hours while on
                                                                telework. Target date for implementation is the first
                                                                quarter of FY 2014.
                                                                Semiannual Report to the Congress • 36
Unimplemented Recommendations
Table 4A: 	     Significant Recommendations from Previous Semiannual
                Reports for Which Corrective Action Has Not Been Completed
       Subject          Report No.         Office           Rec.                Summary and Status of
                        Issue Date                          No.                   Recommendation
Office of Support Operations (OSO) Continued
                                                                     The Library should require employees who are ex-
                                                                     pected to telework during a Continuity of Opera-
                                                                     tions (COOP) event to have adequate training, in-
                                                                     frastructure support, and practice—The Library has
                        2010-PA-102    Office of Support
Telework Program                                            IV.1.a   implemented Library of Congress Remote Environ-
                         June 2011        Operations
                                                                     ment, which expands remote access capabilities and
                                                                     enables staff to telework during a COOP scenario.
                                                                     It is being pilot-tested with full implementation an-
                                                                     ticipated in the second quarter of FY 2014.
                                                                     The Library should have a telework agreement in
                                                                     place that provides for a COOP event—The Li-
                                                                     brary’s revised telework LCR will allow for episodic
                        2010-PA-102    Office of Support             telework arrangements, to include a COOP event.
Telework Program                                            IV.1.b
                         June 2011        Operations                 The Human Capital Planning Board (HCPB) will
                                                                     ensure that agreements are in place for COOP tele-
                                                                     workers. Target date for implementation is the sec-
                                                                     ond quarter of FY 2014.
                                                                     The Library should incorporate teleworking scenar-
                                                                     ios in the Library’s COOP exercises—The Library’s
                                                                     COOP Plan and Emergency Preparedness Annual
                                                                     Training Calendar now includes guidance and a
                        2010-PA-102    Office of Support
Telework Program                                            IV.2     framework for the execution of training workshops
                         June 2011        Operations
                                                                     and drills (tabletop and functional). This is included
                                                                     under the “emergency situations” section of the re-
                                                                     vised telework LCR. Target date for implementa-
                                                                     tion is the first quarter of FY 2014.
Office of Contracts and Grants Management (OCGM)
                                                                     Establish a support component to ensure effective
                                                                     and efficient performance of critical functions that
                                                                     support the OCGM. The position should be staffed
                                      Office of Contracts
Weaknesses in the       2011-SP-106                                  with a senior, experienced General Schedule 1102,
                                          and Grants        I.A.1
Acquisition Function    March 2012                                   Grade 14—The OGC provides policy support to
                                        Management                   OCGM. The new Director, OCGM, is assessing the
                                                                     policy, staffing, and resource needs of the office for a
                                                                     decision in the first quarter of FY 2014.
                                                                     Rewrite the Contracts Operating Instructions
                                                                     (COI) manual deleting those policies that merely re-
                                                                     state the Federal Acquisition Regulations (FAR) and
                                                                     draft specific guidance geared toward the Library’s
                                                                     acquisition activities. Organize the COI so that it is
                                                                     easily accessible—The COIs are being incorporated
                                                                     as technical guidance within the Library’s governing
                                      Office of Contracts            documents framework to facilitate ready access for
Weaknesses in the       2011-SP-106
                                          and Grants        I.A.2    members of the acquisition community and other
Acquisition Function    March 2012
                                        Management                   interested parties across the Library. The Director
                                                                     of OCGM is revising and updating the COIs into
                                                                     a consolidated Contracts Technical Guide (CTG)
                                                                     mapped to corresponding FAR sections, provid-
                                                                     ing Library supplemental guidance rather than re-
                                                                     stating the information contained in the FAR. The
                                                                     CTG is scheduled for publication in the first quarter
                                                                     of FY 2014.

 37 • Semiannual Report to the Congress
Table 4A: 	     Significant Recommendations from Previous Semiannual
                Reports for Which Corrective Action Has Not Been Completed
        Subject         Report No.          Office           Rec.                  Summary and Status of
                        Issue Date                           No.                     Recommendation
                                                                        Rewrite COI 1003 to be a more comprehensive
                                                                        oversight policy and contract review process—Ap-
                                       Office of Contracts              propriate language from existing COIs is incorpo-
 Weaknesses in the       2011-SP-106
                                           and Grants         I.F.2     rated into the consolidated CTG. The oversight and
 Acquisition Function    March 2012
                                         Managementt                    review process of COI 1003 is in section 4.7203 of
                                                                        the CTG. The CTG is scheduled for publication in
                                                                        the first quarter of FY 2014.
                                                                        Develop directives that clearly set forth the policy
                                                                        and constraints for using LCR 2111—LCR 2111 is
                                                                        being revised, updated, and incorporated into sec-
                                                                        tion 5730-37.102 of the consolidated CTG, cor-
                                       Office of Contracts
 Weaknesses in the       2011-SP-106                                    responding with other guidance related to service
                                           and Grants        II.G.1
 Acquisition Function    March 2012                                     contracts. The accompanying Form 52 is being
                                         Management                     revised and updated and incorporated into section
                                                                        5730-53.2 of the CTG, which corresponds to FAR
                                                                        subpart 53.2 Forms. The CTG is scheduled for pub-
                                                                        lication in the first quarter of FY 2014.
                                                                        Restructure the Alert Handbook into a series of
                                                                        user-friendly, PowerPoint® customer service train-
                                                                        ing packages directed at two levels, executive leader-
                                                                        ship and service units—OCGM and OGC conduct
                                                                        classroom-based training and provide instructional
                                                                        material on the OCGM and OGC internal Web
                                                                        sites. OCGM and service unit training has been
                                       Office of Contracts
 Weaknesses in the       2011-SP-106                                    scheduled for the first and second quarters of FY
                                           and Grants        III.B.1
 Acquisition Function    March 2012                                     2014. OCGM will form a project team in the first
                                         Management
                                                                        quarter of FY 2014 to update and improve the in-
                                                                        formation contained on the internal sites and assess
                                                                        available collaborative technologies to enhance ac-
                                                                        cess to current procurement policies, training, in-
                                                                        formation, templates, and best practices across the
                                                                        Library. Target date for the Web content update is
                                                                        the third quarter of FY 2014.
                                                                        Develop a procurement process standard operating
                                                                        procedure (SOP) so that customers understand that
                                                                        a good procurement package includes a statement
                                                                        of work, market research, independent govern-
                                                                        ment cost estimate, and the evaluation factors used
                                                                        in the evaluation process. The SOP should include
                                                                        a procurement package checklist—The Director,
                                                                        OCGM, is conducting client communication and
                                                                        outreach at the executive and staff levels to ensure
                                       Office of Contracts
 Weaknesses in the       2011-SP-106                                    a consistent understanding in the expectations by
                                           and Grants        III.B.4
 Acquisition Function    March 2012                                     project managers and contracting officer represen-
                                         Management
                                                                        tatives related to acquisition packages. The Direc-
                                                                        tor, OCGM, briefed the Library Supervisors Forum
                                                                        and the IT Collaborative Council during the fourth
                                                                        quarter of FY 2013, and will continue to conduct
                                                                        outreach activities to ensure OCGM clients un-
                                                                        derstand their roles and expectations. OCGM will
                                                                        form a project team in the first quarter of FY 2014
                                                                        to update and improve the information contained
                                                                        on the OCGM Web sites.

                                                                       Semiannual Report to the Congress • 38
Unimplemented Recommendations
Table 4A: 	    Significant Recommendations from Previous Semiannual
               Reports for Which Corrective Action Has Not Been Completed
       Subject           Report No.           Office           Rec.              Summary and Status of
                         Issue Date                            No.                 Recommendation
Office of Contracts and Grants Management (OCGM) Continued
                                                                      OCGM and the Office of the Chief Financial Of-
                                                                      ficer (OCFO) should update directives to officially
                                                                      reflect the current spending limit for micro purchas-
                                                                      es of $3,000—Management and oversight of the Li-
                                                                      brary purchase card program was transitioned to the
                                         Office of Contracts          Chief Financial Officer in June 2013. The CTG will
                         2011-SP-101
Improper Payments II                         and Grants        I.2    reference guidance published by OCFO in section
                          May 2011
                                           Management                 5730-13.201, which corresponds to FAR 13 related
                                                                      to simplified acquisition procedures for purchases at
                                                                      or below the micro-purchase threshold. The CTG
                                                                      is scheduled for publication in the first quarter of
                                                                      FY 2014 and the next update to the purchase card
                                                                      directive will be completed by December 2013.
Human Resources Services (HRS)
                                                                      Develop and implement a structured procedure that
                                                                      provides a uniform method for making in/outsource
                                                                      personnel determinations. This procedure should
                                                                      provide the means to identify which activities are
                                                                      inherently governmental and which service provider
                                                                      represents the best value to the Library—The HCPB
                                                                      -sponsored working group received input from the
                                                                      HCPB and service units, and made final recom-
                         2010-PA-105     Human Resources              mendations to the HCPB in August 2013. In addi-
Multi-Sector Workforce                                          I
                         March 2011         Services                  tion, OGC presented to the HCPB in March 2013
                                                                      authoritative guidance on acquiring services from
                                                                      individuals. The National Finance Center Person
                                                                      model has been fully implemented. The Board has
                                                                      been provided a structured process to apply existing
                                                                      procedures, workflows, and approvals to accomplish
                                                                      the objectives within existing policy framework. The
                                                                      target date for completion is the first quarter of FY
                                                                      2014.
Office of Opportunity, Inclusiveness, and Compliance (OIC)
                                                                      Evaluate and revise LCR 2010-3.1—Updates to
                                                                      LCR 2010-3.1 have been completed. The proposed
                                                                      changes have not been bargained with the unions
                                                                      pending the outcome of the proposed legislative
                                              Office of
Equal Employment                                                      initiative. The Library of Congress has proposed a
                         2001-PA-104       Opportunity,
Opportunity                                                     I     legislative initiative that would transfer the Library’s
                         February 2003   Inclusiveness, and
Complaints Office                                                     Equal Employment Opportunity Program to the
                                            Compliance
                                                                      Office of Compliance. The Congressional House
                                                                      Oversight Committee is reviewing the proposal.
                                                                      The target completion date is the fourth quarter of
                                                                      FY 2014.




 39 • Semiannual Report to the Congress
Table 4A: 	      Significant Recommendations from Previous Semiannual
                 Reports for Which Corrective Action Has Not Been Completed
       Subject            Report No.           Office           Rec.                Summary and Status of
                          Issue Date                            No.                   Recommendation
                                                                         OIC, in collaboration with the Library’s Human
                                                                         Capital Management Flexibilities Working Group
                                                                         should complete the barrier identification and elim-
                                                                         ination process initiated with the Multi-Year Affir-
Follow-Up Review of the                         Office of                mative Employment Program Plan (MYAEPP) by
Office of Opportunity,     2011-PA-106       Opportunity,                assessing the success of the plan—The demographic
                                                                II.2.b
Inclusiveness, and Com-     June 2011      Inclusiveness, and            findings were reviewed in the third quarter. The Di-
pliance                                       Compliance                 rector of OIC has implemented a MYAEPP Reas-
                                                                         sessment Working Group, tasked with expanding
                                                                         the scope of the Library’s current MYAEPP. Recom-
                                                                         mendations will be presented to the HCPB during
                                                                         the first quarter of FY2014.
Library Services (LS)
                                                                         Establish criteria for specifically defining top treasure
                                                                         collection items and a clear process to nominate or
                                                                         transfer collection items to the category—The Pres-
                                                                         ervation Directorate responded to edits and com-
Top Treasures Security
                           2008-PA-103                                   ments provided by the OIG, Office of Security and
and Preservation                            Library Services     I.a
                           January 2009                                  Emergency Preparedness, Law Library, and OGC. A
Controls
                                                                         revised draft including updated top treasure nomina-
                                                                         tion forms and an emergency release form was for-
                                                                         warded to OGC on 8/30/2013 for review. The target
                                                                         completion date is the fourth quarter of FY 2014.
                                                                         Update LCR 1816 to include designing a serialized
                                                                         document that is counterfeit resistant, reassigning
                                                                         the responsible office to ensure oversight, document-
                                                                         ing accountability, and implementing procedures to
                                                                         more appropriately account for and retire used passes.
                                                                         Revise the LCR to implement a pass designed for spe-
                                                                         cific Surplus Books Program (SBP) use—In July 2013,
                           2010-PA-106
Surplus Books Program                       Library Services    I.c.1    the Office of Security and Emergency Preparedness
                          September 2011
                                                                         reported that assigned staff had finished meetings
                                                                         with stakeholders for implementing a pass designed
                                                                         for SBP use. The next steps will be to incorporate re-
                                                                         visions, and schedule another meeting of the group,
                                                                         including Information Technology Services (ITS).
                                                                         Revision of the LCR should follow. Target comple-
                                                                         tion date is the first quarter of FY 2014.
                                                                         SBP management should implement the use of a soft-
                                                                         ware application to collect and analyze program oper-
                           2010-PA-106                                   ating data—The target date may slip beyond the first
Surplus Books Program                       Library Services    II.a.1
                          September 2011                                 quarter of FY 2014 because the ITS staff member as-
                                                                         signed to this project has periodically been pulled off
                                                                         the SBP project to work on other projects.
                                                                         LS management should collect the required data to
                                                                         conduct an analysis to determine whether the Library
                                                                         derives tangible benefits from processing other agen-
                           2010-PA-106                                   cies’ surplus material transfers—SBP has not accepted
Surplus Books Program                       Library Services    II.c.1
                          September 2011                                 transfers from other agencies since October 2011 and
                                                                         expects to keep that policy in effect. The target date
                                                                         for a final decision is the fourth quarter of FY 2014 to
                                                                         allow LS management more time to review this issue.

                                                                         Semiannual Report to the Congress • 40
Unimplemented Recommendations
Table 4A: 	     Significant Recommendations from Previous Semiannual
                Reports for Which Corrective Action Has Not Been Completed
       Subject              Report No.        Office          Rec.                Summary and Status of
                            Issue Date                        No.                   Recommendation
Library Services (LS) Continued
                                                                      Design and implement an internal control system that
                                                                      will ensure that valid and verifiable data will be collect-
                                                                      ed and used to measure program performance—There
Performance-based           2010-PA-107
                                           Library Services   II.2    is no change in the status of this recommendation.
Budgeting                   January 2011
                                                                      Action remains on hold pending guidance from the
                                                                      Office of the Librarian on Library-wide planning. The
                                                                      target date for guidance is the first quarter of FY 2014.
Office of Strategic Initiatives (OSI)
                                                                      All IT costs including computer security should be
                                                                      accounted for as part of the IT budgetary process—
                                                                      The Office of the Librarian continues its information
Information                                 Information               resources management (IRM) plan implementation
                            2011-IT-103
Technology Strategic                        Technology        I.2.C   and IT spending and investment reviews. The results
                           December 2011
Planning Follow-up                            Services                of these reviews will determine whether any organiza-
                                                                      tional or resource allocation changes are warranted. Li-
                                                                      brary management was unable to provide a target date
                                                                      for implementation of this recommendation.
                                                                      Separate the IT support functions from OSI and estab-
                                                                      lish the Office of the Chief Information Officer (CIO)
Information                                 Information               from the ITS Directorate and other IT support func-
                            2011-IT-103
Technology Strategic                        Technology        I.3.A   tions of OSI. The CIO will report directly to the Li-
                           December 2011
Planning Follow-up                            Services                brarian or Deputy Librarian with duties, responsibili-
                                                                      ties, and authority consistent with best practices—See
                                                                      status of I.2.C. above.
                                                                      Implement service level agreements to manage cus-
                                                                      tomer expectations—ITS is currently working with
                                                                      LS to negotiate a comprehensive Memorandum of
                                                                      Understanding (MOU) document that is intended
Information                                 Information
                            2011-IT-103                               to cover the full set of technology services that are
Technology Strategic                        Technology        I.5.A
                           December 2011                              provided to LS by ITS. Once this document has
Planning Follow-up                            Services
                                                                      been finalized it will serve as the model for nego-
                                                                      tiating similar MOU documents with each Library
                                                                      service unit. The target date for implemntation is
                                                                      the first quarter of FY 2014.
                                                                      Rather than offering the new help desk system as an
                                                                      interface, ITS should require all technology offices
                                                                      throughout the Library to use a standard help desk
Information                                 Information               system to take advantage of economies of scale—
                            2011-IT-103
Technology Strategic                        Technology        I.5.D   ITS continues to work closely with service units to
                           December 2011
Planning Follow-up                            Services                leverage the centralized, shared solution for help
                                                                      desk management. ITS plans to integrate the re-
                                                                      maining service units as resources are made available
                                                                      with a target date of the first quarter of FY 2015.




 41 • Semiannual Report to the Congress
Table 4A: 	     Significant Recommendations from Previous Semiannual
                Reports for Which Corrective Action Has Not Been Completed
       Subject           Report No.        Office       Rec.                Summary and Status of
                         Issue Date                     No.                   Recommendation
                                                                 Develop a set of metrics for ongoing use to mea-
                                                                 sure performance. These metrics should change and
                                                                 evolve over time as one area shows improvement;
                                                                 new metrics should be developed for other areas—
Information                               Information            A comprehensive set of metrics has been established
                          2011-IT-103
Technology Strategic                      Technology    I.5.F    as part of the recently negotiated and executed IT
                         December 2011
Planning Follow-up                          Services             help desk contract. Over the next several months
                                                                 ITS will be gathering baseline data in order to evalu-
                                                                 ate the effectiveness of these metrics and determine
                                                                 what refinements are necessary. The target date for
                                                                 completion is the second quarter of FY 2014.
                                                                 Conduct regular customer surveys and open infor-
Information                               Information            mational meetings—At this time ITS anticipates
                          2011-IT-103
Technology Strategic                      Technology    I.5.G    implementing a survey instrument as part of its in-
                         December 2011
Planning Follow-up                          Services             cident and service request process with a target date
                                                                 for completion in the second quarter of FY 2014.
                                                                 Coordinate with service and support units to identi-
                                                                 fy and prioritize the legacy systems/applications that
Information                               Information            require certification and accreditation evaluations,
                          2011-IT-103
Technology Strategic                      Technology    II.1     and determine how the required evaluations should
                         December 2011
Planning Follow-up                          Services             be funded—OGC is executing this as a technical
                                                                 change to the LCR; this recommendation will be
                                                                 completed by October 2013.
                                                                 ITS should improve its communications and trans-
                                                                 parency with service and support units by keep-
                                                                 ing them informed about IT equipment which is
Information                               Information            available in inventory—The implementation of as-
                          2012-PA-101
Technology Workstation                    Technology     I.1     set management capabilities within the ITS service
                         September 2012
Management                                  Services             management system will provide complete transpar-
                                                                 ency into the hardware inventory available through
                                                                 the personal computer store. The target implemen-
                                                                 tation date is the second quarter FY 2014.
                                                                 Collect data on efficiency levels of servers, maintain
                                                                 comprehensive server inventory data in a central re-
                                                                 pository, and continuously track data on the power
                                                                 used by its data center—ITS has developed proce-
                                                                 dures for mananging server inventory data using
                                          Information            Symantec’s Altiris solution and reviews reports of
Library-Wide              2013-IT-101
                                          Technology     I.1     data center power usage that are produced weekly
Computing Efficiencies    March 2013
                                            Services             by the Architect of the Capitol. OSI considers those
                                                                 components of the recommendation to be imple-
                                                                 mented. Due to resource constraints ITS delayed
                                                                 its efforts to implement tracking of server efficiency
                                                                 levels. At this time OSI is targeting the second quar-
                                                                 ter of FY 2014 to implement tracking.




                                                                Semiannual Report to the Congress • 42
Unimplemented Recommendations
Table 4A: 	          Significant Recommendations from Previous Semiannual
                     Reports for Which Corrective Action Has Not Been Completed
          Subject                  Report No.                 Office      Rec.              Summary and Status of
                                   Issue Date                             No.                 Recommendation
 Office of Strategic Initiatives (OSI) Continued
                                                                                 Report to the Deputy Librarian the progress made
                                                                                 in adopting the specific recommendations of the
                                                                                 outside consultants’ report on server virtualiza-
                                                                                 tion, and the steps and timeframes it will take to
                                                                                 implement such recommendations and the Library’s
                                                                                 return on investment/cost savings to be achieved—
                                                                                 ITS is currently identifying recommendations from
                                                            Information          the consultant’s report that are viable for implemen-
 Library-Wide                       2013-IT-101
                                                            Technology    I.2    tation in the context of other strategic technology
 Computing Efficiencies             March 2013
                                                              Services           initiatives, ongoing operational activities, and fiscal
                                                                                 and personnel resource constraints at the Library.
                                                                                 As part of this activity ITS intends to document its
                                                                                 reasoning for not implementing some of the recom-
                                                                                 mendations from the report. It will also formalize
                                                                                 a plan for implementing those recommendations it
                                                                                 determines to be viable. ITS anticipates completing
                                                                                 this plan by the second quarter of FY 2014.
                                                                                 Develop an enterprise-wide plan to guide manage-
                                                                                 ment decision-making on possible cloud solutions—
                                                                                 ITS has developed a plan to guide decision-making
                                                            Information
 Library-Wide                       2013-IT-101                                  on potential cloud solutions. This plan will be fully
                                                            Technology    II.1
 Computing Efficiencies             March 2013                                   vetted with Library management and stakeholders
                                                              Services
                                                                                 over the next several months and expects imple-
                                                                                 mentation of the plan to follow. The target date for
                                                                                 completion is the second quarter of FY 2014.
                                                                                 Instruct ITS to take the lead in initiating evalua-
                                                                                 tions of viable cloud computing solutions for the Li-
                                                            Information          brary—Implementation of this recommendation is
 Library-Wide                       2013-IT-101
                                                            Technology    II.2   contingent on Library management and stakeholder
 Computing Efficiencies             March 2013
                                                              Services           approval of the plan referenced in recommendation
                                                                                 II.1 above. The target date for completion is the sec-
                                                                                 ond quarter of FY 2014.




Right: Brochure Cover of a Library of Congress Exhibit Depicting
Thomas Jefferson’s Library.

 43 • Semiannual Report to the Congress
Implemented and Closed Recommendations
Table 4B: 	         Significant Recommendations from Previous Semiannual Reports
                    Which Were Implemented or Closed During This Period

           Subject                   Report No.                 Office          Rec. No.          Summary of Recommendation
                                     Issue Date                                                          and Action
 Office of Contracts and Grants Management (OCGM)
                                                                                           Fill the Director slot with a permanent, qualified,
                                                                                           and experienced acquisition professional. This will
                                                          Office of Contracts              signal the importance of the acquisition function
 Weaknesses in the                   2011-SP-106
                                                              and Grants          I.B.1    within the Library and provide much-needed guid-
 Acquisition Function                March 2012
                                                            Management                     ance and leadership to the OCGM—The position
                                                                                           of Director of Contracts and Grants Management
                                                                                           was filled in the third quarter of FY 2013.
 Office of Strategic Initiatives (OSI)
                                                                                           ITS work in consultation with the Budget Office
                                                                                           and the OGC to establish a procedure that ensures
                                                                                           that ITS purchases of IT equipment will conform to
 Information                                                  Information                  restrictions of the bona fide needs rule—ITS, with
                                    2012-PA-101                                            the advice of OGC and OCFO, has revised its pro-
 Technology Workstation                                       Technology           I.3
                                   September 2012                                          curement procedures to include steps for verifying
 Management                                                     Services                   that a current fiscal year need exists for the goods or
                                                                                           services that are the subject of a particular proposed
                                                                                           procurement. These procedures were effective May
                                                                                           23, 2013.




Right: Decorative features and marble columns in the Great Hall,
Thomas Jefferson Building.

Photograph by: Walter E. Obando, Office of the Inspector General.

 45 • Semiannual Report to the Congress
       Funds Questioned or Put to Better Use
        Table 5:	         Audits with Recommendations for Better Use of Funds
                                                                          Number of Audit   Total Funds Put
                                                                             Reports         to Better Use
        No management decision was made by the start of the period:              -                 -

        Issued during the period:                                                -                 -
        In need of management decision during the period:                        -                 -
        Management decision made during the reporting period:

                 Value of recommendations agreed to by management                -                 -



                 Value of recommendations not agreed to by management            -                 -

        No management decision made by the end of the reporting period:
                                                                                 -                 -
                 Less than 6 months old:
                                                                                 -                 -
                 More than 6 months old:




        Table 6:	         Audits with Questioned Costs
                                                                          Number of Audit     Total Ques-
                                                                             Reports         tioned Costs

        No management decision made by the start of the period:                  -                 -

        Issued during the period:                                                -                 -
        In need of management decision during the period:                        -                 -
        Management decision made during the reporting period:

                 Value of recommendations agreed to by management                -                 -

                 Value of recommendations not agreed to by management            -                 -

        No management decision made by the end of the reporting period:

                 Less than 6 months old:                                         -                 -

                 More than 6 months old:                                         -                 -




47 • Semiannual Report to the Congress
Instances Where Information or
Assistance Requests Were Refused
No information or assistance requests were refused during this period.

Status of Recommendations
Without Management Decisions
During the reporting period, there were no recommendations more than six months old without
management decisions.

Significant Revised Management Decisions
In our Sepetember 2012 audit report, Improvements Needed to Prevent Wasteful Procurement and Inefficient
Disposal of IT Workstations, we reported that the Library violated the bona fide needs rule when purchasing
various information technology equipment, thereby wasting $355,190. Seven months after we received a
written reply to our report, and after the recommendations were implemented, the Library sent the IG a
memorandum disagreeing with the report without providing any additional facts to support its claim.


Significant Management Decisions
with Which OIG Disagrees
We disagree with management’s revised decision in the preceding section.

In February 2013, the Library deleted the narrative that the OIG wrote about the audit for the Library’s
FY 2014 Congressional Budget Justification, along with the narrative for another FY 2012 OIG audit that
identified $771,163 in overpayments and questioned costs relating to a Library contract. Three months
later, the Library informed the OIG in a May 2013 memorandum that it disagreed with the report. The
OIG reaffirmed its position in a response to the Library’s memorandum.


Follow-up on Prior Period Recommendations
In this semiannual period, we followed up on all open recommendations from our prior semiannual pe-
riod. Management’s comments on the status of individual recommendations appear in table 4A. Recom-
mendations management asserts it has implemented during the period appear in table 4B. In order to
confirm that recommendations have been implemented as reported, we perform periodic follow-up on
selected projects to verify implementation; however, all assertions contained in table 4B are the representa-
tions of management.




                                                                  Semiannual Report to the Congress • 48
OIG Organizational Chart




                                                                    Inspector General
                     Counsel to the IG                              Karl W. Schornagel
                                                                    CPA                                        Administrative Officer
                     E. Wade Green, Jr.
                                                                                                               Sheetal Gupta
                     (Under Interagency Agreement)




                     Assistant Inspector                                                                     Assistant Inspector
                     General for Audits                                                                      General for Investigations
                     Kurt W. Hyde                                                                            Thomas E. Williams
                     CPA                                                                                     CCE, ACE, SCERS




Senior Lead Auditor                         Lead Auditor                                 Special Agent                                Special Agent
John R. Mech                                Walter E. Obando                             Hugh D. Coughlin                             Pamela D. Hawe (Part-time)
CPA                                         CIA, CISA                                                                                 SCERS




Auditor                                     Auditor                                  Management Analyst                              Investigator
Elizabeth Valentin                          Christine C. Cochrane                        Michael R. Peters                            Barbara A. Hennix

CPA, CISA                                   CPA, CFA                                     SCERS                                        (on Detail to Library Services)



Management Analyst                         Management Analyst                                                Special Agent
Sarah E. Sullivan                           Jennifer R. Bosch                                                 Donald Lyles (Part-time, Temporary)
                                                                                                             SCERS




49 • Semiannual Report to the Congress
Inspector General Hotline

    Help Promote Integrity, Economy, and Efficiency

Report Suspected Fraud, Waste, Abuse, or Mismanagement

          Complaints May be Made Anonymously




                     Inspector General

                    Library of Congress

              101 Independence Avenue, S.E.
                           LM-630

               Washington, DC 20540 -1060




   Main Telephone Number:           (202) 707-6314

               Fax Number:          (202) 707-6032

 Hotline Telephone Number:          (202) 707-6306

             Hotline Email:         oighotline@loc.gov

                   P.O. Box:        15051 S.E. Station
                                    Washington, DC 20003-9997




      Any information you provide will be held in confidence.
    However, providing your name and a means of communicating
         with you may enhance our ability to investigate.
End paper with Stormont pattern   End paper with Antique Marble pattern   End paper with Bouquet Marble pattern   End paper with French Curl pattern
